TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Enhancements Made to the Modernized e-File
                System in Release 8 Should Improve System
                  Performance for the 2013 Filing Season



                                           April 22, 2013

                              Reference Number: 2013-20-039




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                               HIGHLIGHTS


ENHANCEMENTS MADE TO THE                           Results from the 48-hour test show that the tool
MODERNIZED E-FILE SYSTEM IN                        for validating delivery of downstream files timely
RELEASE 8 SHOULD IMPROVE SYSTEM                    generated files to the Electronic Fraud Detection
PERFORMANCE FOR THE 2013 FILING                    System. The IRS also increased the bandwidth
                                                   of the portal that serves as the entry point for
SEASON
                                                   web-based access to IRS applications and data.
                                                   Because other IRS applications use the same
Highlights                                         portal as the MeF system, this increased
                                                   bandwidth helps guard against a decrease in
                                                   overall performance.
Final Report issued on April 22, 2013
                                                   To improve the IRS’s ability to monitor and
Highlights of Reference Number: 2013-20-039        measure the MeF system’s availability, the IRS
to the Internal Revenue Service Chief              is in the process of implementing new
Technology Officer.                                monitoring tools and Automated Ticket
                                                   Generation. Although monitoring activities do
IMPACT ON TAXPAYERS                                not directly improve performance of the MeF
The Modernized e-File (MeF) system is the          system, they can help alert the IRS to problems
IRS’s electronic filing system that enables        or potential problems so that IRS personnel can
real-time processing of tax returns while          proactively act to mitigate the problems when
improving error detection, standardizing           they are identified.
business rules, and expediting                     Collectively, the various categories of work
acknowledgements to taxpayers. It is a critical    should provide the enhancements intended to
component to meet the needs of taxpayers,          correct the 2012 Filing Season issues and give
reduce taxpayer burden, and broaden the use of     the IRS the assurance of the MeF system’s
electronic interactions. The enhancements          readiness for the 2013 Filing Season.
made to the MeF system in preparation for the
2013 Filing Season should help ensure the          WHAT TIGTA RECOMMENDED
reliability of the MeF system and reduce delays
                                                   TIGTA did not make any recommendations in
in processing taxpayers’ tax returns.
                                                   this report. However, a discussion draft of the
WHY TIGTA DID THE AUDIT                            report was provided to the IRS for review and
                                                   comment. The IRS had no comments on the
This review is part of our Fiscal Year 2013        report.
Annual Audit Plan and addresses the major
management challenge of Modernization. The
overall audit objective was to determine whether
the MeF system infrastructure changes were on
track to deliver improvements in performance
and reliability for the 2013 Filing Season.
WHAT TIGTA FOUND
The IRS reviewed the MeF system performance
issues from the 2012 Filing Season and
identified major categories of work to address
performance and reliability issues. To ensure
that the IRS could process the anticipated
volume of returns for the 2013 Filing Season,
the IRS modified its testing strategy by
incorporating significant enhancements, namely
the use of a production-sized database and
performance testing for a duration of 48 hours.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 22, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Enhancements Made to the Modernized e-File
                             System in Release 8 Should Improve System Performance for the
                             2013 Filing Season (Audit # 201320026)

 This report presents the results of our review of the Modernized e-File system. The overall
 objective was to determine whether the Modernized e-File system infrastructure changes were on
 track to deliver improvements in performance and reliability for the 2013 Filing Season. This
 audit is included in the Treasury Inspector General for Tax Administration Fiscal Year 2013
 Annual Audit Plan and addresses the major management challenge of Modernization.
 We did not make any recommendations in this report. However, a discussion draft of the report
 was provided to the Internal Revenue Service (IRS) for review and comment. The IRS had no
 comments on the report.
 Copies of this report are also being sent to the IRS managers affected by the report. If you have
 any questions, please contact me or Alan R. Duncan, Assistant Inspector General for Audit
 (Security and Information Technology Services).
                                     Enhancements Made to the Modernized e-File
                                     System in Release 8 Should Improve System
                                       Performance for the 2013 Filing Season




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Necessary Steps Were Taken to Improve Modernized e-File
          System Performance ..................................................................................... Page 3
          Monitoring Tools Are Still Under Development .......................................... Page 12
          A Contingency for the Modernized e-File System Exists to
          Minimize Disruptions in the Taxpayers’ Ability to File Tax
          Returns Electronically ................................................................................... Page 14

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – MeF Release 8 – 48-Hour Test Results ............................... Page 18
          Appendix V – Forms Accepted by the Legacy e-File System for
          the 2013 Filing Season .................................................................................. Page 21
          Appendix VI – Glossary of Terms ................................................................ Page 22
       Enhancements Made to the Modernized e-File
       System in Release 8 Should Improve System
         Performance for the 2013 Filing Season




              Abbreviations

IRS     Internal Revenue Service
IT      Information Technology
MeF     Modernized e-File
ODS     On-Demand Services
PETE    Performance Evaluation Testing Environment
RUP     Registered User Portal
                               Enhancements Made to the Modernized e-File
                               System in Release 8 Should Improve System
                                 Performance for the 2013 Filing Season




                                           Background

The Modernized e-File (MeF) system is the Internal Revenue Service’s (IRS) electronic filing
system that enables real-time processing of tax returns while improving error detection,
standardizing business rules, and expediting acknowledgements to taxpayers. It is a critical
component to meet the needs of taxpayers, reduce taxpayer burden, and broaden the use of
electronic interactions. The IRS deployed Release 71 for the 2012 Filing Season, which included
the remaining individual tax return forms and schedules.2
During the 2012 Filing Season, the IRS required all
transmitters that transmitted one million or more individual     During the 2012 Filing Season,
tax returns during the 2011 Filing Season to use the              MeF system processing was
MeF system to electronically file tax returns. On at least         suspended at least twice
two different occasions, the IRS had to suspend MeF system             to correct system
processing to correct system performance issues. IRS                  performance  issues.
management noted that the performance issues first
experienced on January 17, 2012, might have been caused
by the large volume of tax returns received by the MeF system during the first day of processing.
According to the IRS, the volume of returns received by the MeF system on January 17, 2012,
was one of the largest the IRS had ever received to date. The second incidence of MeF system
performance issues started in late January 2012. These issues primarily included delays sending
files to downstream systems and delivering of acknowledgements, which resulted in delays in
processing individual tax returns.
The IRS determined that performance enhancements would be needed to increase processing
rates and improve the reliability of delivering submissions to downstream systems. To ensure
that it corrected the identified issues, the IRS approved a change request in early February 2012
to modify the scope of Release 8 in order to focus on performance, system reliability, and
production support, thereby delaying implementation of new business taxpayer forms to
Release 9.
This review was performed at the offices of the Information Technology (IT) Applications
Development, Enterprise Operations, and Enterprise Services organizations located in
Lanham, Maryland, during the period October 2012 through March 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to

1
 See Appendix VI for a glossary of terms.
2
 In February 2010, the IRS deployed MeF Release 6.1 to begin electronically processing the Form 1040, U.S.
Individual Tax Return, series along with 22 other forms and schedules. In January 2011, the IRS deployed
Release 6.2, which focused on improving system performance and capacity.
                                                                                                        Page 1
                           Enhancements Made to the Modernized e-File
                           System in Release 8 Should Improve System
                             Performance for the 2013 Filing Season



provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 2
                           Enhancements Made to the Modernized e-File
                           System in Release 8 Should Improve System
                             Performance for the 2013 Filing Season




                                Results of Review

Necessary Steps Were Taken to Improve Modernized e-File System
Performance
The IRS reviewed the MeF system performance issues from the 2012 Filing Season to identify
required enhancements for Release 8. The following list illustrates the 2012 Filing Season issues
to be addressed:
      Insufficient volume of test data to conduct performance testing.
      Insufficient length of performance testing.
      Differences between the test and production environments.
      Insufficient testing of timely delivery of files to downstream systems.
      Undersized portal to meet increased usage.
Figure 1 shows where the performance issues occurred during the 2012 Filing Season.




                                                                                          Page 3
                              Enhancements Made to the Modernized e-File
                              System in Release 8 Should Improve System
                                Performance for the 2013 Filing Season



                  Figure 1: Location of MeF System Performance Issues
                              During the 2012 Filing Season




Source: Our modification of a diagram provided by Enterprise Services organization management.

Based on the issues, IRS management identified three major categories of work (or work
streams) to address performance and reliability issues. The IRS also identified a fourth work
stream to improve monitoring activities that help alert the IRS of problems or potential problems
so personnel from the IT organization can proactively act to mitigate the problems when they are
identified. Figure 2 identifies each work stream’s objective, estimated cost, and the specific
IT organization responsible for delivery.

                                                                                                 Page 4
                             Enhancements Made to the Modernized e-File
                             System in Release 8 Should Improve System
                               Performance for the 2013 Filing Season



                             Figure 2: Four Major Work Streams
                               Lead IT
      Work Stream            Organization                    Objective                Estimated Cost
                                                  Enhance performance testing
   Performance Test       Enterprise Services                                           $3,440,619
                                                  environment.
                          Applications            Validate timely delivery of files
   ODS                                                                                   $404,000
                          Development             to downstream systems.
                                                  Determine if the Registered
   Portal Readiness                               User Portal (RUP) is sized
                          Enterprise Services                                           $1,264,780
   and Testing                                    sufficiently to support the
                                                  2013 Filing Season volume.
                          Enterprise              Implement improved
   Monitoring                                                                           $1,536,401
                          Operations              monitoring capabilities.
  Source: IRS MeF system briefings and IT organization management.

The IRS reported it invested about $43.07 million developing Release 8, approximately
$6.65 million of which supported the work streams. The performance test and portal readiness
and testing work streams directly affect the timely submission of tax returns for processing. The
IRS modified its testing strategy by incorporating significant enhancements, namely the use of a
production-sized database and performance testing for a duration of 48 hours, to ensure that the
IRS could process the anticipated volume of returns for the 2013 Filing Season. Additionally,
the IRS increased the bandwidth of the portal that serves as the entry point for web-based access
to IRS applications and data. Because other IRS applications use the same portal as the MeF
system, this increased bandwidth helps guard against a decrease in overall performance.
The ODS work stream helps track the flow of tax return information to downstream systems.
The monitoring work stream allows the IRS to proactively respond to events/incidents reported
by the MeF system.

Enhanced Release 8 performance test strategy addressed issues identified
during the 2012 Filing Season
One of the lessons learned from the 2012 Filing Season was that the IRS did not have a sufficient
volume of test data to enable it to conduct longer, sustained performance testing. As a result, the
IRS increased the Release 8 test requirement for the Performance Evaluation Testing
Environment (PETE) database by implementing a copy of the MeF system production database.
This production-sized database contained 23.1 million records, up from the 6.6 million records
required for Release 7 testing. By doing so, the IRS leveraged data from the production-sized
database to help it obtain the required amount of data needed to execute sustained performance
testing.


                                                                                                 Page 5
                           Enhancements Made to the Modernized e-File
                           System in Release 8 Should Improve System
                             Performance for the 2013 Filing Season



The IRS also learned it needed to execute a performance test with a continuous rate for more
than eight hours. As a result, the IRS included a requirement to execute a 48-hour test in the
Release 8 test plan. The 48-hour test is significant for the following reasons:
      It tests MeF system processing during peak and non-peak conditions.
      It was the primary test of Release 8 ODS enhancements.
The IRS uses receipt rate and acknowledgement rate measurements to evaluate MeF system
performance. For time periods with a low submission rate, the IRS expects the
acknowledgement and receipt rates to match. For high-volume periods where the submission
rate is sufficient to test peak filing season volume, the IRS expects the MeF system to deliver an
acknowledgement rate of 132 acknowledgements per second, with up to a two-hour delay. Most
of the IRS’s performance testing is geared towards validating whether the MeF system can
perform during peak loads of steady submissions. However, with the exception of a couple of
peak periods, notably at the start of the filing season and the April deadline for individual
returns, most of the filing season contains peaks and valleys of processing. The 48-hour test
simulates the peaks and valleys of processing experienced during the filing season.
The Internal Revenue Manual states that performance testing is required to determine whether
the system undergoing testing can effectively process transactions under expected normal and
peak workload conditions and within acceptable response times. If performance and capacity
tests are not successful, the risk that the system may fail to meet stated business performance
requirements is increased. Specific risks include the possibility that an application could become
unavailable to process mission-critical transactions or the system could experience unexpected
outages or degraded response times.
Figure 3 shows excerpts of hourly performance test results from the 48-hour test where volume
increases to a point where the acknowledgement rate falls well behind the receipt rate, consistent
with volume for peak filing season conditions. Appendix IV provides the complete results of the
48-hour test.




                                                                                           Page 6
                              Enhancements Made to the Modernized e-File
                              System in Release 8 Should Improve System
                                Performance for the 2013 Filing Season



                   Figure 3: Results From the 48-Hour Test in Release 8

                                              Receipts          Acknowledgements
  Line          Date          Time           per second            per second               Differential
                                December 11, 2012, Peak Period
    1        12/11/2012       16:00             71.9                     71.7                    -0.2
    2        12/11/2012       17:00             104.2                   100.8                    -3.4
    3        12/11/2012       18:00             154.1                   132.4                   -21.7
    4        12/11/2012       19:00             100.6                   124.9                    24.3
    5        12/11/2012       20:00             79.3                     79.9                    0.6
    6        12/11/2012       21:00             85.9                     86.5                    0.6
    7        12/11/2012       22:00             77.3                     77.0                    -0.3
    8        12/11/2012       23:00             77.3                     76.8                    -0.5
                              December 12–13, 2012, Peak Period
    9        12/12/2012       17:00             111.8                   111.2                    -0.6
    10       12/12/2012       18:00             166.5                   124.7                   -41.8
    11       12/12/2012       19:00             124.1                   124.9                    0.8
    12       12/12/2012       20:00             148.7                   122.7                    -26
    13       12/12/2012       21:00             43.1                     98.7                    55.6
    14       12/12/2012       22:00             90.2                     98.0                    7.8
    15       12/12/2012       23:00             95.0                     97.8                    2.8
    16       12/13/2012        0:00             89.3                     90.3                     1
    17       12/13/2012        1:00             63.4                     63.8                    0.4
Source: The Daily PETE report dated December 13, 2012, and our calculations. We did not independently assess
the accuracy or reliability of the data presented in this figure.

For the first peak period (Figure 3, line 3), the MeF system experienced a one-hour volume
spike to rates of 154.1 receipts per second and 132.4 acknowledgements per second at 18:00
(6:00 p.m.), a negative differential of 21.7 acknowledgements per second. By 19:00 (7:00 p.m.)
(Figure 3, line 4), the receipt rate dropped to 100.6 receipts per second and the acknowledgement
rate was 124.9 acknowledgements per second, a positive differential of 24.3 acknowledgements
per second, showing that the MeF system caught up on the prior hour’s backlog. In the second

                                                                                                        Page 7
                          Enhancements Made to the Modernized e-File
                          System in Release 8 Should Improve System
                            Performance for the 2013 Filing Season



peak period (Figure 3, line 10), volume again spiked at 18:00 (6:00 p.m.) to 166.5 receipts per
second and 124.7 acknowledgements per second. Unlike the first peak period where the volume
spike lasted only one hour and dropped to a steady lower rate, the volume of returns remained
high for three hours in the second peak period, until 20:00 (8:00 p.m.), making the evaluation
slightly more complicated. Therefore, we calculated total receipts per second and
acknowledgements per second from 18:00 (6:00 p.m.), which was the start of the spike, to 22:00
(10:00 p.m.), which was two hours after the volume spike ended. By 22:00 (10:00 p.m.), the
cumulative differential between receipts per second and acknowledgements per second was only
a negative 3.6 acknowledgements per second (-41.8 + 0.8 + -26 + 55.6 +7.8), indicating that
acknowledgements had again largely caught up to receipts. Based on the results of the 48-hour
test, we believe that MeF Release 8 meets its stated acknowledgement rate performance
requirement.
In addition to reviewing results from the 48-hour test, we reviewed test results from the final
tests performed January 11–25, 2013. The IRS will implement configurations from the final
tests into production for the start of the filing season. The final tests concluded with seven
acknowledgement rate tests to validate that the MeF system would meet performance
requirements for peak filing season. For these tests, the MeF system averaged a receipt rate of
150.71 receipts per second with an acknowledgement rate of 127.71 acknowledgements per
second. While the tests do not specifically depict whether the MeF system delivered
acknowledgements within two hours, the IRS conducted analysis of the 2012 Filing Season to
estimate hourly return submissions to the MeF system for the April 2013 Filing Season peak
period. The IRS subsequently estimated the delay in delivering acknowledgements at various
potential acknowledgement rates. Figure 4 displays projections for whether the MeF system will
deliver acknowledgements within a two-hour period at different rates.




                                                                                         Page 8
                             Enhancements Made to the Modernized e-File
                             System in Release 8 Should Improve System
                               Performance for the 2013 Filing Season



       Figure 4: 2013 Filing Season Projections of Acknowledgement Rates




    Source: Enterprise Services organization Solutions Engineering management.
    Acks/sec = acknowledgements/second.

The graph shows that if the MeF system delivers an acknowledgement rate of at least
113 acknowledgements per second, then it will meet performance requirements for Release 8.
Collectively, the upgrades to the Release 8 PETE environment and enhancements to Release 8
performance testing addressed weaknesses identified from Release 7 testing. It also provided the
IRS with a higher degree of confidence that the performance test results observed during
Release 8 testing will mirror the performance results observed during the 2013 Filing Season.




                                                                                         Page 9
                             Enhancements Made to the Modernized e-File
                             System in Release 8 Should Improve System
                               Performance for the 2013 Filing Season



ODS enhances downstream processing of files
The IRS developed requirements for the ODS to deliver files to downstream systems. For
example, the ODS will deliver data to the Generalized Mainline Framework at specified times
each day, whereas the ODS will deliver data to the Electronic Fraud Detection System every
hour on the half-hour. The ODS also creates summary data for reports showing the counts of the
returns submitted downstream and removes data that have aged past their required retention
period. Figure 5 lists the high-level 2012 Filing Season ODS issues and the corresponding
enhancements for Release 8.
     Figure 5: Comparison of ODS Issues and Corresponding Enhancements

          2012 Filing Season ODS Issue                      MeF Release 8 ODS Enhancement

 Files to downstream systems were not timely         The IRS implemented monitoring to ensure that
 generated and duplicate files containing accepted   files are delivered timely and separated the file
 tax return data were delivered to downstream        creation step into independent units of work.
 systems; also called File Generation.

 Tool used to create summary data for reports        Updated programming code to fix problems that
 generated incorrect counts and took longer than     caused incorrect counts and transferred work from
 expected; also called Aggregators.                  the application to the database to assist with
                                                     timely completion of tasks.

 The Java Virtual Machine became unresponsive        Updated the programming code to distribute the
 and had to be stopped because it could not          ODS tasks across multiple Java Virtual Machines.
 process all its tasks.

 Tasks for removing old or unnecessary data took     Updated queries to allow purge tasks to complete
 longer than expected; also called Purge.            sooner.
Source: ODS Enhancements Management Briefing, dated September 24, 2012.

The IRS tested the Release 8 ODS enhancements during the 48-hour test. The Daily PETE
report dated January 11, 2013, noted all Aggregator and Purge tasks completed with the
exception of known issues with a specific Aggregator and a specific Purge task that have no
impact on performance. Further, test results provided by IRS management for File Generation
tasks show that the MeF system timely generated files to the Electronic Fraud Detection System
during the 48-hour test, the primary system affected by the 2012 Filing Season ODS issues.
However, the test results also showed that the Electronic Tax Administration Research and
Analysis System and the E-File Reports website did not meet file delivery requirements. During
a February 26, 2013, meeting, IRS management noted that the MeF system experienced some
issues with timely delivery of files to various downstream systems during the 2013 Filing Season
and stated that the issues have subsequently been fixed.

                                                                                                 Page 10
                                 Enhancements Made to the Modernized e-File
                                 System in Release 8 Should Improve System
                                   Performance for the 2013 Filing Season



Testing indicated the successful expansion of the portal capacity
The RUP is the IRS external portal that allows registered individuals, third-party users, and other
individual taxpayers or their representatives to access the IRS for interaction with selected tax
processing and other sensitive systems, applications, and data. The RUPs are used by external
users to access the MeF system applications, find the status of their refunds, obtain Preparer Tax
Identification Numbers, and perform other functions. There are two RUP-LAs3 and two
RUP-SAs.4
During the 2012 Filing Season, the MeF system experienced a more than 4,000 percent increase
in demand. The IRS observed several issues with the portal, resulting in extraordinarily slow or
no service for its customers. Several contributing factors included high central processing unit
utilization on the session database server and MeF system backend processing. Analyses were
performed and several recommendations were made to improve the performance of the RUP-LA.
A major recommendation was to expand the network bandwidth from 45 Mbps (megabits per
second) to 70 Mbps. Because other systems, besides the MeF system, use the RUP, IT
organization management stated that IRS executives decided to increase the bandwidth to
155 Mbps to ensure that the bandwidth will support all activities using this portal. The
additional bandwidth will guard against a decrease in portal performance. Other
recommendations, not all inclusive, for improving portal performance included replacing and
upgrading the telecommunications technology. A draft December 31, 2012, MeF system status
briefing5 reported that the IRS completed replacing the telecommunications equipment. The IRS
also completed testing of the portal bandwidth in December 2012. The test results indicated that
the bandwidth upgrade was successful and information is being sent through the circuits at a rate
of 155 Mbps.
In addition, the IRS conducted a test in September 2012 to determine the readiness of the
RUP-SA to support estimated workloads for the 2013 Filing Season of 120 End User
Transactions per second. The test report concluded that the RUP-SA processed 124 End User
Transactions per second, which met and exceeded the test objective of 120 End User
Transactions per second. The report also stated that testing determined that one portal could
process the required peak workload in the event the IRS had to failover to one portal.
Collectively, the various work streams should provide the enhancements intended to correct the
2012 Filing Season issues and give the IRS the assurance of the MeF system’s readiness for the
2013 Filing Season.




3
  This access requires registration and login authentication and is referred to as RUP-LA.
4
  This access requires self-authentication using shared secrets and is referred to as RUP-SA.
5
  MeF R8 Executive Status/Risk and Schedule Meeting dated December 31, 2012.
                                                                                                Page 11
                               Enhancements Made to the Modernized e-File
                               System in Release 8 Should Improve System
                                 Performance for the 2013 Filing Season



Monitoring Tools Are Still Under Development
The IRS created the Information Technology Business Plan6 as a roadmap in its journey to
world-class status. The Plan documents the IT organization’s strategic direction for Fiscal
Years 2011–2013 and includes a goal for delivering improved business capabilities and
governance. To achieve this goal, the IRS chartered an End-To-End Program in July 2010 to
improve the IT organization’s ability to monitor, measure, manage, and improve information
technology service ability end to end. World-class organizations monitor and measure the
availability and performance of the services they provide to customers and use these data to
quickly react to system outages/degradation and take proactive steps to prevent outages from
occurring.
Enterprise Operations organization management stated that they performed monitoring activities
for the MeF system during the previous filing season. However, for MeF Release 8, they worked
on implementing new monitoring tools and Automated Ticket Generation7 to improve the IRS’s
ability to monitor and measure the MeF system’s availability as well as help address the system’s
89 technical monitoring requirements for the 2013 Filing Season. The technical monitoring
requirements were separated into six high-priority categories.
Figure 6 provides the technical monitoring requirements categories and the number of
requirements. As of February 10, 2013, the IRS implemented 67 (75 percent) of the 89 technical
monitoring requirements. Unresolved issues caused a delay in implementing the remaining
22 requirements. Some of the unresolved issues include problems with the functionalities of a
monitoring application, monitoring solutions not yet developed, and events initiating the
auto-tickets not being generated or received. The IRS planned to deploy the remaining technical
monitoring requirements during the 2013 Filing Season; however, it has yet to identify the
implementation dates.




6
 Based on a draft copy of the IRS Information Technology Business Plan Fiscal Years 2011–2013.
7
 The End-To-End System can automatically open incident tickets in the Knowledge Incident/Problem Service Asset
Management system.
                                                                                                     Page 12
                              Enhancements Made to the Modernized e-File
                              System in Release 8 Should Improve System
                                Performance for the 2013 Filing Season



                Figure 6: Technical Monitoring Requirements Categories
                                                                         Requirements      Requirements
                                                        Total            Deployed by      to be Deployed
  Category                 Description               Requirements         02/10/2013       in the Future
 Dashboard      Provide single monitoring
                                                            13                  5               8
                dashboard.
 Database       Monitor and ticket on status of
                                                            12                  9               3
 Monitoring     Oracle databases.
 File           Monitor file creation status to
                                                             1                  1               0
 Transfer       downstream systems.
 Integration    Integrate Tivoli Event Console
                                                            23                 15               8
                errors and auto-ticketing.
 ODS            Correlate and ticket ODS
                                                             7                  7               0
 Monitoring     Events.
 Queue          Monitor queues [Java
 Monitoring     Messaging Service and                       33                 30               3
                Messaging Queue].
                                            Total           89                 67              22
Source: Our analysis of data provided by Enterprise Operations organization management.

Although monitoring activities do not directly improve performance of the MeF system, they can
help alert the IRS to problems or potential problems so that IRS personnel can proactively act to
mitigate the problems when they are identified. Enterprise Operations organization management
stated that a delay in implementing these requirements would necessitate the continued use of
tools or processes currently in place (e.g., manual monitoring).
The IRS also planned to implement Automated Ticket Generation during Release 8, a feature
that did not exist during the 2012 Filing Season. As part of monitoring, Automated Ticket
Generation will automatically open incident tickets in the Knowledge Incident/Problem Service
Asset Management system for 69 different conditions with a Priority 2 level. Examples of
conditions that will generate a ticket are when the acknowledgement rate goes below a certain
threshold, a server is down, or the portal is unavailable. The Automated Ticket Generation is
more efficient than the manual process because it automatically routes the tickets to the
appropriate party for resolution.
As of February 1, 2013, the IRS deployed 29 of 69 auto-ticketing requirements into production
and plans to deploy the remaining requirements during the 2013 Filing Season. We encourage
the IRS to continue to develop and test all of the monitoring requirements for the MeF system,
and we will evaluate its progress during our review of MeF Release 9. Once they are completely
implemented, we believe that the monitoring requirements will improve the IRS’s ability to
                                                                                                 Page 13
                                   Enhancements Made to the Modernized e-File
                                   System in Release 8 Should Improve System
                                     Performance for the 2013 Filing Season



monitor the MeF system’s availability and performance, allowing personnel to efficiently and
proactively identify and address system problems and positioning the IRS to becoming a
world-class IT organization.

A Contingency for the Modernized e-File System Exists to Minimize
Disruptions in the Taxpayers’ Ability to File Tax Returns Electronically
When errors in the MeF system caused processing problems in February 2012, the IRS
encouraged transmitters to use the Legacy e-File system instead of the MeF system. The IRS
temporarily lifted and later permanently lifted the restrictions on the use of the Legacy e-File
system for the remainder of the 2012 Filing Season. IRS management originally planned to
retire the Legacy e-File system in October 2012; however, we recommended that the IRS defer
the retirement of the Legacy e-File system until the increased risk associated with retiring the
system can be addressed. The MeF Business System Requirements Report Release 8 System
Development Phase Milestone 4B dated November 13, 2012, included an assumption that the
IRS will revert to the Legacy e-File system if the MeF system cannot be used.
The IRS is committed to having all software providers, transmitters, and States use the MeF
system as the only platform to transmit individual tax returns during the 2013 Filing Season. At
the same time, the IRS realized it needed a contingency or backup plan in the event the MeF
system experienced significant performance issues. As a risk management step, the IRS
announced it will continue to maintain part of the Legacy e-File system as a backup for the MeF
system. Specifically, the IRS agreed it will accept only the 25 most frequently used individual
forms and schedules.8 Further, the IRS indicated it would permit software developers and
transmitters to use the Legacy e-File system only after they passed required testing. A review of
the IRS’s website on August 28, 2012, indicated that the IRS notified the public about its
approach for the Legacy e-File system as early as July 31, 2012.
As of December 10, 2012, IRS management reported updating and testing the changes for the
Legacy e-File system for the 2013 Filing Season. The IRS planned to complete testing by
January 14, 2013; however, testing was extended to January 17, 2013, due to late tax legislation
enacted on January 2, 2013. On January 8, 2013, the IRS announced plans to commence the
2013 Filing Season and begin processing most individual income tax returns on January 30,
2013.
Because the IRS prepared the Legacy e-File system to accept the designated returns and required
transmitters to pass the Participant Acceptance Testing System test in order to file returns
through the Legacy e-File system, we concluded that the IRS has taken adequate steps to ensure
that the Legacy e-File system can be used during the 2013 Filing Season in the event that the
MeF system is unable to process the entire workload.

8
    See Appendix V for a list of the forms and schedules.
                                                                                          Page 14
                           Enhancements Made to the Modernized e-File
                           System in Release 8 Should Improve System
                             Performance for the 2013 Filing Season



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the MeF system infrastructure changes were on
track to deliver improvements in performance and reliability for the 2013 Filing Season. To
accomplish our objective, we:
I.     Determined if the IRS’s mitigation activities from the 2012 Filing Season will improve
       the MeF system’s performance and reliability to enable it to be the sole system
       supporting the 2013 Filing Season.
       A. Obtained an understanding of the differences in performance testing strategies
          between Releases 7 and 8.
       B. Evaluated how the four work streams will enhance MeF Release 8 performance and
          correct the performance problems that occurred during the 2012 Filing Season.
       C. Reviewed performance test results from tests performed December 11–13, 2012, to
          determine whether the work streams are improving performance to the IRS’s
          expectations.
II.    Evaluated the IRS’s plans to ensure continuity of processing returns during the filing
       season.
       A. Determined what the IRS has done to ensure that the Legacy e-File system can
          process returns during the 2013 Filing Season if the MeF system is unable to do so.
       B. Determined what guidance has been provided to the transmitters if it becomes
          necessary for them to use the Legacy e-File system in lieu of the MeF system.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS testing guidance and the MeF
Release 8 requirements. We evaluated these controls by interviewing IRS IT management from
the Applications Development, Enterprise Operations, and Enterprise Services organizations and
reviewing relevant supporting documentation.




                                                                                           Page 15
                          Enhancements Made to the Modernized e-File
                          System in Release 8 Should Improve System
                            Performance for the 2013 Filing Season



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny R. Verneuille, Director, Systems Operations
Diana M. Tengesdal, Audit Manager
Tina Wong, Senior Auditor
Michael T. Mohrman, Information Technology Specialist
Linda L. Nethery, Information Technology Specialist




                                                                                     Page 16
                          Enhancements Made to the Modernized e-File
                          System in Release 8 Should Improve System
                            Performance for the 2013 Filing Season



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Application Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Enterprise Systems Testing OS:CTO:AD:EST
Director, Submission Processing OS:CTO:AD:SP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Electronic Products and Services Support, Wage and Investment Division
SE:W:CAS:E:PSS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                   Page 17
         Enhancements Made to the Modernized e-File
         System in Release 8 Should Improve System
           Performance for the 2013 Filing Season



                                                       Appendix IV

MeF Release 8 – 48-Hour Test Results

                        Receipts    Acknowledgements
    Date       Time    per second      per second

  12/11/2012   9:00       21.7            21.9

  12/11/2012   10:00      54.7            54.6

  12/11/2012   11:00      57.5            57.6

  12/11/2012   12:00      51.6            51.1

  12/11/2012   13:00      94.1            94.5

  12/11/2012   14:00      40.6            40.6

  12/11/2012   15:00      48.7            48.7

  12/11/2012   16:00      71.9            71.7

  12/11/2012   17:00     104.2           100.8

  12/11/2012   18:00     154.1           132.4

  12/11/2012   19:00     100.6           124.9

  12/11/2012   20:00      79.3            79.9

  12/11/2012   21:00      85.9            86.5

  12/11/2012   22:00      77.3            77.0

  12/11/2012   23:00      77.3            76.8

  12/12/2012   0:00       73.3            73.7

                                                            Page 18
       Enhancements Made to the Modernized e-File
       System in Release 8 Should Improve System
         Performance for the 2013 Filing Season




                      Receipts    Acknowledgements
  Date       Time    per second      per second

12/12/2012   1:00       70.1            70.3

12/12/2012   2:00      109.5           108.6

12/12/2012   3:00       62.8            63.6

12/12/2012   4:00       40.0            40.2

12/12/2012   5:00       27.6            27.6

12/12/2012   6:00       39.6            39.5

12/12/2012   7:00       34.5            34.5

12/12/2012   8:00       26.5            26.6

12/12/2012   9:00       31.6            31.5

12/12/2012   10:00      43.1            43.1

12/12/2012   11:00      87.7            87.4

12/12/2012   12:00      74.9            75.0

12/12/2012   13:00      91.3            91.3

12/12/2012   14:00      40.7            40.5

12/12/2012   15:00     108.3           108.6

12/12/2012   16:00      68.9            68.8

12/12/2012   17:00     111.8           111.2

12/12/2012   18:00     166.5           124.7

                                                     Page 19
           Enhancements Made to the Modernized e-File
           System in Release 8 Should Improve System
             Performance for the 2013 Filing Season




                              Receipts        Acknowledgements
     Date         Time       per second          per second

 12/12/2012       19:00         124.1                  124.9

 12/12/2012       20:00         148.7                  122.7

 12/12/2012       21:00          43.1                  98.7

 12/12/2012       22:00          90.2                  98.0

 12/12/2012       23:00          95.0                  97.8

 12/13/2012        0:00          89.3                  90.3

 12/13/2012        1:00          63.4                  63.8

 12/13/2012        2:00         112.6                  110.1

 12/13/2012        3:00          53.1                  55.6

 12/13/2012        4:00          26.0                  26.2

 12/13/2012        5:00          26.0                  25.9

 12/13/2012        6:00           7.8                   7.8

 12/13/2012        7:00          10.4                  10.4

 12/13/2012        8:00           3.6                   3.6
Source: The Daily PETE report dated December 13, 2012. We did not
independently assess the accuracy or reliability of the data presented
in this figure.




                                                                         Page 20
                           Enhancements Made to the Modernized e-File
                           System in Release 8 Should Improve System
                             Performance for the 2013 Filing Season



                                                                                          Appendix V

             Forms Accepted by the Legacy e-File
              System for the 2013 Filing Season

          Form                                                Name
1040                      U.S. Individual Income Tax Return
1040A                     U.S. Individual Income Tax Return
1040EZ                    Income Tax Return for Single and Joint Filers With No Dependents
1040 (Sch A)              Itemized Deductions
1040 (Sch B)              Interest and Ordinary Dividends
1040 (Sch C)              Profit or Loss From Business (Sole Proprietorship)
1040 (Sch D)              Capital Gains and Losses
1040 (Sch E)              Supplemental Income and Loss
1040 (Sch EIC)            Earned Income Credit
1040 (Sch SE)             Self-Employment Tax
1099R                     Distributions From Pensions, Annuities, Retirement or Profit-Sharing
                          Plans, IRAs, Insurance Contracts, etc.
2106                      Employee Business Expenses
2106EZ                    Unreimbursed Employee Business Expenses
2210                      Underpayment of Estimated Tax by Individuals, Estates, and Trusts
2441                      Child and Dependent Care Expenses
4562                      Depreciation and Amortization (Including Information on Listed Property)
8283                      Noncash Charitable Contributions
8812                      Additional Child Tax Credit
8829                      Expenses for Business Use of Your Home
8863                      Education Credits (American Opportunity and Lifetime Learning Credits)
8867                      Paid Preparer's Earned Income Credit Checklist
8880                      Credit for Qualified Retirement Savings Contributions
8888                      Allocation of Refund (Including Savings Bond Purchases)
W-2                       Wage and Tax Statement (Info Copy Only)
8949                      Sales and Other Dispositions of Capital Assets

Source: IRS website at http://www.irs.gov/uac/e-file-requirements-for-the-2013-Filing-Season.




                                                                                                     Page 21
                              Enhancements Made to the Modernized e-File
                              System in Release 8 Should Improve System
                                Performance for the 2013 Filing Season



                                                                                        Appendix VI

                                   Glossary of Terms

Term                                Definition

Acknowledgement Rate                Captures the time from when the receipt of a tax return submission
                                    is created to the time the acknowledgement for that tax return
                                    submission is made available for retrieval.

Auto-Ticketing                      When a specific incident or problem occurs, an incident ticket is
                                    automatically generated and routed to the appropriate organization
                                    for resolution.

Capacity Test                       Test used to determine how many users and/or transactions a given
                                    system will support and still meet performance goals.

Central Processing Unit             An internal component of the computer that performs arithmetic and
                                    logical operations, extracts instructions from memory, decodes
                                    instructions, and executes instructions.

Electronic Fraud Detection          An automated system used to maximize fraud detection at the time
System                              tax returns are filed to eliminate the issuance of questionable
                                    refunds.

Enterprise File Transfer Utility    A utility that moves data in a controlled, structured, and secured
                                    environment through the organization.

Electronic Tax Administration       A system that captures summary statistics used to generate
Research and Analysis System        management reports and to support research activities.

Filing Season                       The period from January through mid-April when most individual
                                    income tax returns are filed.

Generalized Mainline Framework      The system that validates and perfects data from a variety of input
                                    sources (e.g., tax returns, remittances, information returns, and
                                    adjustments) and controls, validates, and corrects updated
                                    transactions.

Java                                A general purpose, concurrent, class-based, object-oriented
                                    language that is specifically designed to have as few
                                    implementation dependencies as possible.


                                                                                                  Page 22
                         Enhancements Made to the Modernized e-File
                         System in Release 8 Should Improve System
                           Performance for the 2013 Filing Season



Term                          Definition

Knowledge Incident/Problem    An IRS application that maintains the complete inventory of
Service Asset Management      information technology and non–information technology assets,
System                        computer hardware, and software. It is also the reporting tool for
                              problem management with all IRS-developed applications and
                              shares information with the Enterprise Service Desk.

Legacy e-File System          The current IRS electronic filing system that is being replaced by
                              the MeF system.

Milestones                    Provide “go/no-go” decision points in a project and are sometimes
                              associated with funding approval to proceed.

Portal                        A point of entry into a network system that includes a search engine
                              or a collection of links to other sites, usually arranged by topic.

Receipt Rate                  Measured from the time the transmitter sends the return to the time
                              the acknowledgement of receipt is made available for retrieval.

Release                       A specific edition of software.

Requirement                  A statement of capability or condition that a system, subsystem, or
                             system component must have or meet to satisfy a contract, standard,
                             or specification.

Risk                          A potential event that could have an unwanted impact on the cost,
                              schedule, business, or technical performance of an information
                              technology program, project, or organization.

Transmitter                   A firm, organization, or individual that receives returns and
                              Personal Identification Number registrations electronically from
                              clients (Electronic Return Originators, Reporting Agents, or
                              taxpayers), reformats the data (if necessary), batches the data with
                              data from the returns and electronic Personal Identification Number
                              registrations of other clients, and then transmits the data to the IRS.




                                                                                             Page 23
